       We will also post this advisory on our website (www.doioig.gov) and Recovery.gov.
Information contained in this advisory may also be included in our semi-annual report to
Congress. Please contact me with any questions.

Background

        BLM was allocated approximately $320 million under the Recovery Act, which requires
all agencies to obligate the majority of funds by September 30, 2010. On February 20, 2009, the
Department directed bureaus to develop a list of projects, and associated data, that they planned
to finance with Recovery Act funds. These lists were to be submitted to the Department by
March 2, 2009. BLM’s initial project list included approximately 650 projects. In a review of
FedBizOps.gov announcements, however, we found that as of June 29, 2009, only 10 listings for
BLM Recovery Act projects had been posted to the site, a significantly lower number of
Recovery Act listings compared to other bureaus.1 For this reason, we sought to learn the status
of Recovery Act projects within BLM and to understand the systems used by BLM State Offices
to track and manage their Recovery Act workload.

       We interviewed Recovery Act coordinators from eight BLM State Offices: Arizona,
California, Colorado, Nevada, New Mexico, Oregon, Utah, and Wyoming. We also interviewed
the BLM Recovery Act Coordinator in Washington, D.C. We conducted all interviews by
telephone except for a personal meeting with the Colorado State Office Coordinators.

Prioritizing Obligation of Funds

        The key goal of the Recovery Act is to quickly stimulate the economy, leading to the
creation of the largest number of jobs in the shortest period of time, while also focusing on
projects of lasting value to the country. We learned from the BLM Recovery Act Coordinator
that BLM’s goal was to have 90 percent of Recovery Act projects obligated by July 1, 2010, and
70 percent completed by the obligation deadline of September 30, 2010. From our
conversations with BLM staff, however, we noted a “business as usual” approach to working on
Recovery Act projects, where obligating appropriated funds for routine projects was prioritized
over obligating Recovery Act funds. There existed a general lack of urgency in meeting the
Recovery Act’s obligation deadline, much less the Bureau’s internal goals.

Pre-Planning Process

        Many state coordinators said so few listings had been posted to FedBizOpps.gov because
they had only received their Recovery Act funding at the end of May 2009. They explained they
were in the preliminary planning process, which included finalizing project statements of work,
hiring additional personnel to help with the workload, working on National Environmental
Policy Act (NEPA) requirements and other project related prerequisites, and negotiating which

1
  Since our interviews, the Department has begun issuing weekly Recovery Act Obligations/Outlays reports. As of
September 4, 2009, BLM had only obligated 6.73 percent of its Recovery Act funds, nearly half of the next lowest
obligation rate of 11.98 percent at the U.S. Geological Survey. Additionally, we reviewed BLM’s report to the
Department dated October 23, 2009 and found that the amount of funds obligated in several states was still quite
low. For example, only about 12 percent of funds had been obligated by September 30, 2009, for projects in
California, Colorado and New Mexico.
                                                                                                                   2
Recovery Act projects would be handled through the BLM National Operations Center. While
these preliminary planning activities are advisable, we believe State Offices would be better
positioned to meet the obligation deadline had they started these activities earlier in the year
when they began developing their project lists.

Recovery Act Guidance

        Two state coordinators told us they were waiting to work on Recovery Act related
contract actions because they expected to receive additional guidance from Headquarters on
clauses to be included in contracts. We pointed this out to the BLM Recovery Act Coordinator
in Washington D.C., who informed us that his office was developing a guide on recipient
reporting to help make the mandatory, newly issued Recovery Act clauses easier to explain. He
said there was no expectation that State Offices would hold up their projects while waiting for
that guidance. After we talked to the BLM Recovery Act Coordinator, he sent an email to state
coordinators on July 9, 2009, clarifying that they should not delay the processing of contracting
actions and emphasizing that Recovery Act contracts should be executed as soon as possible.
Given this late clarification, however, it is likely that season-specific projects, such as trails
maintenance, managed by these two states have been postponed unnecessarily.

Project Tracking

        We are concerned about inconsistent project tracking methodologies across BLM. Under
the Recovery Act, federal agencies are subject to an unparalleled level of transparency, which
requires the ability to carefully track and report on Recovery Act projects. Decentralized,
informal methods for tracking projects often require staff to spend substantial time and effort
collecting data and manipulating spreadsheets to respond to data calls. This could complicate
Bureau-wide reporting efforts and takes time away from implementing Recovery Act projects.

        The BLM Recovery Act Coordinator told us that the Bureau has adapted a database to
collect Recovery Act data from a variety of sources. Financial data is pulled directly from the
Bureau’s Financial and Business Management System (FBMS), while information on
accomplishments and hours comes from the Activity Based Cost (ABC) system. Project data
that cannot be collected from either FBMS or ABC is supplied in a spreadsheet by each State
Office that can be downloaded from BLM’s intranet site; data elements include the project
phase, the status of NEPA compliance requirements, permits/consultation status, and a 250-word
project status update. State Recovery Act Coordinators submit their spreadsheets to the BLM
Recovery Act Coordinator’s office in Washington D.C., where the information is compiled and
entered manually into the database.

       Each state official we spoke with was aware, to a varying degree, of the Bureau-level
process described above and that they would be required to submit additional data through
templates provided on the intranet site.2 We found, however, that state-level methods for
managing and tracking Recovery Act projects vary widely. Methods for tracking projects range

2
 During the timeframe of our interviews, the Bureau-wide plan for tracking projects was still being developed; thus,
some State Recovery Act Coordinators were more aware than others of the process and what it would entail
depending on when we spoke with them.
                                                                                                                  3
from somewhat informal decentralized processes that rely on the use of spreadsheets created and
maintained by various program managers in State Field Offices, to comprehensive, interactive,
web-based systems with real-time reporting capabilities.

Nevada State Office Example

        A tracking system that deserves to be highlighted is the one used by BLM staff in
Nevada. Last year, the Deputy State Director, Division of Support Services, implemented this
comprehensive web-based document management system to track projects within the state.
After the Recovery Act was passed, the Deputy State Director developed the Nevada Recovery
Act site, a parallel system dedicated solely to tracking Recovery Act projects in the state. Project
leads throughout the state use the web-based portal to submit weekly employee expenditures, a
narrative summary of their project’s progress, workload accomplishments, photographs showing
significant project milestones, and project status plans that include estimated completion dates
and milestones, as well as procurement types and estimated quantities of each procurement. The
system also includes an alert function that notifies responsible staff (including field project
managers, procurement staff, and Recovery Act coordinators), when a project has been changed
in the system. Additionally, if reporting requirements change, templates within the system are
easily amended to capture the new information quickly. According to the Deputy State Director,
the system has opened up lines of communication between Field Offices and the State Office,
and has significantly reduced the time and effort staff spends responding to data calls and
reporting requirements.

        We were impressed with the Nevada Recovery Act site, and in follow-up conversations
with the BLM Recovery Act Coordinator, we were pleased to learn that he had asked the Nevada
Deputy State Director, Division of Support Services, to give a presentation to other BLM State
Recovery Act Coordinators, requiring them to adopt the system or a similar one. We also
learned that BLM has taken steps to accelerate implementation of Recovery Act projects in
response to the Department’s recently revised goal of mobilizing Recovery Act projects by June
30, 2010. The BLM Assistant Director, Business and Fiscal Resources, issued an Instruction
Memorandum (IM) dated October 29, 2009, that sets deadlines for Project Managers to submit
procurement requests to State procurement offices and the National Operations Center.3 The IM
details deadlines and estimated acquisition lead limes for various types of Recovery Act projects,
and outlines the consequences of failing to submit complete acquisition packages by the
deadlines.




3
    IM No. 2010-012
                                                                                                  4
Recommendations

        We recommend:

        1.	 All State Offices develop detailed work plans that ensure routine appropriated fund
            activities do not take precedence or impede the progress of Recovery Act activities.

cc: 	   Deputy Secretary, Department of the Interior
        Senior Advisor to the Secretary for Economic Recovery and Stimulus
        Assistant Secretary – Policy, Management, and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        Recovery Coordinator, Bureau of Land Management
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Audit Liaison, Bureau of Land Management




                                                                                                   5
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
